March 2011


INFORMATION SECURITY
Evaluation of GAO’s Program and Practices
for Fiscal Year 2010

Objectives: GAO is not obligated by law to comply with, but has adopted, the
requirements of the Federal Information Security Management Act of 2002
(FISMA) to strengthen its information security program and demonstrate its
ongoing commitment to lead by example. GAO’s Office of Inspector General
(OIG) conducted an evaluation to assess (1) the effectiveness of the agency’s
information security policies, procedures, and practices, and (2) agency
compliance with the information security requirements of FISMA and other
federal information security policies, procedures, standards, and guidelines.
(A full report on this evaluation was prepared for GAO internal use only.)

Findings: The OIG’s evaluation showed that GAO has established an
information security program that is generally consistent with the
requirements of FISMA, Office of Management and Budget (OMB)
implementing guidance, and standards and guidance issued by the National
Institute of Standards and Technology. However, using evaluation metrics
provided by OMB for inspectors general, the OIG also identified improvement
opportunities for specific elements of this program that concern
   identifying the agency’s systems inventory and assuring that all systems
    operated by GAO or by contractors meet security requirements,

   implementing additional computer scanning capabilities to test security
    configuration settings,

   remediating configuration-related vulnerabilities in a timely manner,

   ensuring that contractors have access to required role-based security
    awareness training, and

   planning for further implementation of the personal identity verification
    requirements of Homeland Security Presidential Directive 12 (HSPD-12).

Recommendations: This report recommends that GAO (1) incorporate
procedures within its annual systems inventory process that require inventory
changes to be documented and formally approved by the Chief Information
Officer and that system interfaces be identified, (2) identify and pursue
additional options for obtaining assurances that certain contractor systems
meet federal information security requirements, (3) continue efforts to
complete and document required information security processes and
procedures for all GAO-operated systems, (4) proceed with plans to establish
a security configuration scanning capability for GAO notebook computers
and workstations, (5) incorporate changes to the configuration management
process that remediate specific open configuration-related vulnerabilities,
(6) ensure that access to annual role-based information security training or its
equivalent is provided for all contractor staff required to take this training,
and (7) develop and brief senior management on a plan for practical
implementation of HSPD-12 requirements. GAO concurred with these
recommendations.



                                                                 GAO/OIG-11-3
                          To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,          the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist, available 24
GAO’s Internal            hours a day, 7 days a week.
Operations
                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202) 512-8361.

                      •   Write to:
                          GAO Office of Inspector General
                          441 G Street NW, Room 1808
                          Washington, DC 20548

                          To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of       www.gao.gov/about/workforce/ig.html.
GAO/OIG Reports and
Testimony

                          Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
Congressional             U.S. Government Accountability Office, 441 G Street NW, Room 7125
Relations                 Washington, DC 20548

                          Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs            U.S. Government Accountability Office, 441 G Street NW, Room 7149
                          Washington, DC 20548




                          This is a work of the U.S. government and is not subject to copyright protection in the
                          United States. The published product may be reproduced and distributed in its entirety
                          without further permission from GAO. However, because this work may contain
                          copyrighted images or other material, permission from the copyright holder may be
                          necessary if you wish to reproduce this material separately.




                                 Please Print on Recycled Paper
